    Concurrent Audit of USAID/Madagascar’s
Performance Monitoring of Selected Health Services
funded by the Southern Africa Floods Supplemental
                  Appropriation

              Report No. 4-687-02-005-P
                   June 21, 2002




    REGIONAL INSPECTOR GENERAL/PRETORIA
U.S. Agency for
INTERNATIONAL
DEVELOPMENT

RIG/Pretoria


June 21, 2002

MEMORANDUM
FOR:              Acting Mission Director, USAID/Madagascar, Stephen M.
                  Haykin

FROM:             Regional Inspector General/Pretoria, Joseph Farinella /s/

SUBJECT:          Concurrent Audit of USAID/Madagascar’s Performance
                  Monitoring of Selected Health Services funded by the Southern
                  Africa Floods Supplemental Appropriation (Report No. 4-687-
                  02-005-P)


This memorandum is our report on the subject audit. We have received your
comments on the draft report and have included them in their entirety as an
appendix to this report (see Appendix II).

This report contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   2
Table of
Contents                                                             Page

           Summary of Results                                         3

           Background                                                 3

           Audit Objective                                            4

           Audit Findings                                             4

                  Population Services International                   4

                         Program Achievements                         5

                         USAID/Madagascar’s Monitoring of
                         PSI’s Performance                            5

                         Review of Contractor Reports and Meetings    6

                         Site Visits                                  7

                  John Snow, Inc.                                    9

                         Program Achievements                        10

                         USAID/Madagascar’s Monitoring of
                         JSI’s Performance                           12

                         Review of Contractor Reports and Meetings   12

                         Site Visits                                 14

           Management Comments and Our Evaluation                    15

           Appendix I - Scope and Methodology                        16

           Appendix II - Management Comments                         18




                                                                            3
Summary of   This audit was conducted to provide concurrent audit coverage of selected health
Results      services funded by the Southern Africa Floods Supplemental Appropriation.
             The purpose of the Supplemental Appropriation was to assist affected countries
             in repairing damages caused by three cyclones. In Madagascar, this audit
             covered USAID’s monitoring of activities funded through the cooperative
             agreement with Population Services International and amendment modifications
             numbers six and eight to the contract with John Snow, Incorporated.

             The objective of the audit was to determine whether USAID/Madagascar
             monitored contractor performance in providing selected health services under
             the Southern Africa Floods Supplemental Appropriation.

             USAID/Madagascar monitored contractor performance in providing selected
             health services under the Southern Africa Floods Supplemental Appropriation.
             Specifically, the Mission conducted site visits, reviewed performance and
             financial reports and held periodic meetings with contractor personnel. As a
             result, the objectives of these activities are being met. (See pages 4-9)


Background   In early 2000, three cyclones (Eline, Gloria, and Hudah) caused extensive
             damage in Madagascar affecting over one third of the entire country. The
             three cyclones combined caused substantial wind, flood, and landslide damage
             and crop losses leading to food shortages affecting approximately 300,000
             people and killing 200. The cyclones have had a major negative health impact
             on Madagascar’s population.

             Madagascar’s needs were aggregated with those of Mozambique, South
             Africa, and other affected countries into a request for the greater Southern
             Africa Floods Supplemental Appropriation. The Emergency Supplemental
             Appropriation for the Southern Africa Flood Reconstruction Program
             (Tranche I) under Public Law 106-246, provided $25 million to assist in the
             repair of the damage caused by the cyclones, of which Madagascar received
             $3 million. A second Emergency Supplemental Appropriation (Tranche II),
             under Public Law 106-429, provided Madagascar an additional $14 million
             for repairs, health services and disaster preparedness. To assist in
             implementing the objectives of the Supplemental Appropriation,
             USAID/Madagascar awarded a cooperative agreement to Population Services
             International and made modifications to an existing contract awarded to John
             Snow, Inc.

             Population Services International was awarded a cooperative agreement for
             $1.2 million to accelerate the production, commercial distribution, and
             household use of the sodium hypochlorite solution Sur’Eau “safe water.”
             This product improves household water quality and decreases diarrheal
             disease. The agreement calls for distribution in key regional centers to

                                                                                            4
                  mitigate the spread of cholera and other water-borne diseases in cyclone-
                  affected and cyclone-vulnerable areas in Madagascar.

                  John Snow, Inc. was awarded a contract to provide technical assistance
                  services to the Mission to meet defined performance measures necessary for
                  the achievement of “smaller, healthier families.” Two contract amendments
                  provided a total of $1.5 million to provide additional activities to reduce the
                  morbidity and mortality of cyclone-related diseases.



Audit Objective   The audit objective was developed as a part of our annual plan to provide
                  concurrent audit coverage to activities funded by the Southern Africa Floods
                  Supplemental Appropriation. RIG/Pretoria performed this audit to answer the
                  following audit objective:

                         Did USAID/Madagascar monitor contractor performance in providing
                         selected health services under the Southern Africa Floods
                         Supplemental Appropriation?

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.



Audit Findings    Did USAID/Madagascar monitor contractor performance in providing
                  selected health services under the Southern Africa Floods Supplemental
                  Appropriation?

                  USAID/Madagascar monitored contractor performance in providing selected
                  health services under the Southern Africa Floods Supplemental Appropriation.
                  Specifically, the Mission conducted site visits, reviewed performance and
                  financial reports and held periodic meetings with contractor personnel.

                  Achievements of the two implementing organizations Population Services
                  International and John Snow, Inc. and the Mission’s monitoring of their
                  activities are discussed below.

                  Population Service International

                  USAID/Madagascar awarded a cooperative agreement to Population Services
                  International (PSI) to accelerate the production, commercial distribution, and
                  household use of a water-purifying solution called Sur’Eau. This product
                  treats water to make it safe for drinking, preparing meals, washing utensils
                  and vegetables, and prevents the spread of water-borne diarrheal diseases such
                  as cholera. PSI was the sole producer of this water-purifying solution in

                                                                                                    5
Madagascar and had a proven record of providing the solution during the
emergency cyclone response phase.

Program Achievements - The cooperative agreement between
USAID/Madagascar and PSI had three quantifiable goals, which were being
met as follows:

! Increase the monthly production capacity of Sur’Eau from 27,500 bottles in
  March 2000 to 252,000 bottles in June 2002. By February 2002, PSI
  exceeded the goal of monthly production capacity of 252,000. Production
  capacity was in excess of 300,000 bottles a month.

! Recruit 4,000 new retailers and 155 new wholesalers by July 2002
  representing an increase in geographic coverage from one province in
  March 2000 to five provinces by June 2002. As of September 2001, 8,490
  retailers and 472 wholesalers and had been recruited in five provinces.

! Sell over 600,000 bottles of Sur’Eau by June 2002. As of the end of
  February 2002, the number of bottles sold was 507,092 or 85 percent of
  the target1.

In addition, the cooperative agreement required PSI to establish an emergency
stock of Sur’Eau to ensure rapid response to future disasters and/or potential
cholera outbreaks throughout the country. These pre-positioned stocks of
Sur’Eau are to be available for the Government of Madagascar, private
volunteer organizations and other donors to purchase for distribution to the
communities in need. As of December 2001, pre-positioned stocks were
located in nine locations around the country totaling approximately 152,931
bottles. USAID/Madagascar’s long-term goal is to franchise the production of
Sur’Eau to locally owned firms under a continued subsidy provided through PSI
with donor funds. Currently, a contract has been provided to a local
manufacturer to produce the plastic bottles and the Sur’Eau solution.


USAID/Madagascar’s Monitoring of PSI’s Performance - According to
Automated Directive System (ADS) Chapter 303.3, the Cognizant Technical
Officer (CTO) is responsible for ensuring that USAID exercises prudent
management over specific assistance awards for which they are designated as
CTO.

ADS 303.3 further states, in part, that the CTO accomplishes this by
monitoring and evaluating the recipient and the recipient’s performance

1
 The data presented for the three items above was provided by PSI and
was not audited by us.


                                                                               6
                              during the award in order to facilitate the attainment of program objectives by
                              maintaining contact including site visits and liaison with the recipient and
                              reviewing and analyzing all performance and financial reports as well as
                              verifying timely delivery.

                              The Mission complied with ADS 303.3 and was substantially involved with
                              PSI during the performance of this cooperative agreement. As discussed
                              below, the CTO reviewed quarterly progress reports and conducted quarterly
                              reviews to track PSI’s progress in achieving the goals in the agreement. The
                              CTO held monthly meetings with PSI to discuss program implementation,
                              progress, and budget issues and reviewed financial reports to ensure the
                              accuracy of expenses. The CTO also conducted site visits to stores,
                              production plants and provinces where the product was being sold, produced
                              and marketed.

                              Review of Contractor Reports and Meetings - The CTO reviewed quarterly
                              progress reports and conducted quarterly reviews to track PSI’s progress in
                              achieving the goals in the agreement.

                              A review of the financial documentation revealed that the CTO and the
                              Contracting Officer reviewed PSI’s quarterly financial statements submitted by
                              PSI for accuracy. As a result, some budget line items were realigned to focus
                              PSI’s transition from manufacturing to marketing the product.

                              A review of the CTO’s work file also indicated that all documents relevant to
                              Project Sur’Eau2 were included. Such documents included the signed copy of
                              the cooperative agreement, the CTO’s designation letter, the financial documents
                              and other correspondence between the CTO, PSI and the Contracting Officer.
                              The Mission also documented the site visits made; however, the write-ups were
                              not maintained in the Mission’s official working file. We suggested and the
                              Mission agreed that a hard copy of write-ups of the site visits should also be
                              maintained in the Mission’s official working file.

                              The CTO held monthly meetings with PSI to discuss progress, program
                              implementation and budget issues. Discussions covered items such as the
                              progress to date on achieving the goals of the agreement. Other issues were also
                              discussed to ensure that PSI was on track in meeting the objectives.




2
    This is the name given to this project.

                                                                                                               7
Photograph of the Cognizant Technical Officer (left) for Project Sur’Eau poses with
staff from Population Services International in front of a display of Sur’Eau and other
products. (Photo taken in Antananarivo, Madagascar by RIG/Pretoria, February
2002)

Site Visits - The CTO conducted a number of site visits to provinces, stores,
hotelys “local inexpensive restaurants” and production plants to monitor and
evaluate the activities of PSI in promoting the use of this product. During the
site visits to the provinces, the CTO obtained an overview of the program’s
progress and visited presentations. The presentations promoted key messages
about Sur’Eau. For example, the Mission and PSI noticed that sales of the
product were down during the dry season. To change the peoples’ behavior, a
key message relayed during the presentations was to use Sur’Eau all year long
because diarrheal disease can be a problem at any time and not just during the
cyclone or rainy season.

The CTO also attended other presentations by PSI that promoted the use of
this product. Such presentations included mobile video presentations, which
were held in poor neighborhoods, and presented a short education session on
the proper use of Sur’Eau and its benefits. These presentations proved to be
effective because they drew large crowds. For example, one presented in
September 2001 had an estimated 600-700 people in attendance. In addition,
the CTO and other representatives from the Mission evaluated other events
that promoted the product. Such activities included radio and television spots
and printed materials in the local dialects.




                                                                                      8
The CTO visited local stores and wholesalers to get an indication of the sales
and the movement of the product. The CTO observed that the shop owners
were displaying the advertisement signs of Sur’Eau in their shop windows.
Many of the shop owners reported that sales were good and that they did not
have a problem moving the product. The shop owners also stated that they
demonstrated to their customers how to measure and mix the solution. We
accompanied the PSI deliveryman on his route to four local stores and
observed the delivery of Sur’Eau. We also confirmed that Sur’Eau was on the
shelves and being sold.




Photograph of a PSI deliveryman delivering a shipment of Sur’Eau to a local store in
Antananarivo. (Photo taken in Antananarivo, Madagascar by RIG/Pretoria, February
2002)

The CTO conducted oversight visits to hotelys in Madagascar where the
owners are encouraged to use Sur’Eau at their establishments. The owners
use Sur’Eau for preparing meals, washing utensils and drinking. Our
observations at the three hotelys visited in Antananarivo revealed that Sur’Eau
promotional materials, such as banners and stickers were prominently
displayed at the hotelys. Also, owners appeared to be knowledgeable about
the use and benefits of the product.




                                                                                   9
Photograph of a hotely owner posing with a 20-liter container of water treated with
Sur’Eau. (Photo taken in Antananarivo, Madagascar by RIG/Pretoria, February 2002)

The CTO also visited the production facilities and warehouse where Sur’Eau
is manufactured and stored to observe the production and bottling of the
product. The Mission found that the production was simple and that there
seemed to be adequate quality control. They observed that each batch was
tested for quality and one bottle was saved for testing later. We visited the
production facility and the warehouse. The warehouse contained all of PSI’s
products. We also observed that expired bottles of Sur’Eau were disposed of
and the bottles recycled. We were unable to observe the actual production
because the production had been temporarily discontinued as a result of the
country’s volatile political situation.

In conclusion, the Mission adequately monitored and evaluated the
performance of Population Services International during the award period and
the goals of the project and the Supplemental Appropriation are being
achieved.

John Snow Inc.

USAID/Madagascar awarded a contract to John Snow, Inc. (JSI) to provide
technical assistance services to the Mission to meet defined performance
measures necessary for the achievement of “smaller, healthier families.” Two
modifications were made to this contract to provide $1.5 million to include
additional activities to assist in preparation and mitigation of cyclone-related
diseases. In September 2000, USAID/Madagascar modified JSI’s contract

                                                                                10
with amendment number six. This amendment provided $500,000 to cover
activities through September 2001. In December 2000, the Mission further
modified the contract with amendment number eight. This amendment
provided an additional $1 million for a two-year period from approximately
November 2000 to November 2002.

The two amendments provided funding to establish a health education, training
and emergency health service program in cyclone affected areas. This
included conducting health education sessions, training volunteers in
preventing and treating diseases, equipping health posts with basic supplies and
establishing cholera triage centers in each of the health posts in order to be
prepared for future disasters.

Program Achievements - The following table illustrates targets and
achievements for the health services program for cyclone affected areas
through December 2001.

                                      Table I
                               Program Achievements
                                                                   Achieved   Achieved
                                                                  September   December
  Amendment Goals                                    Target          2001       2001
  Number of health education sessions conducted       140             250        500

 Number of volunteers trained in preventing and        350           500        1000
 treating diseases
 Number of health posts, health centers or regional     15           25          50
 hospitals provided with basic medical materials
 and cholera treatment equipment
 Number of cholera triage centers equipped to            5           25          50
 manage cholera
NOTE – This data was provided by JSI and was not audited by us.

As shown above, targets have been surpassed. As a result, communities in the
cyclone-affected areas have been helped to recover from the year 2000
cyclones and also develop their abilities to respond to the effects of future
cyclones.

To further educate communities in disaster preparedness and mitigation, JSI
distributed information, education and community (IEC) materials in cyclone-
affected communities. IEC materials consist of posters, bulletins, leaflets,
comic books, flags, counseling cards and other items to reinforce messages on
health topics, including disaster preparedness, diarrhea and cholera prevention
and treatment and other health issues.

The IEC materials are given to district and community level health workers
and village level health extension volunteers who complete the training

                                                                                       11
sessions. The idea is to enable the health extension volunteers to return to their
villages and conduct health education sessions on these themes. As of
September 2001, more than 800,000 pieces of IEC material had been
distributed to target audiences throughout five districts.

One such piece of IEC material is counseling cards. Counseling cards are
pictorials on a variety of health subjects such as diarrhea, cholera, malaria and
acute respiratory infections. For example, the counseling card shown below
presents the theme of cholera prevention. This card illustrates that after using
the latrines and before eating food, one should wash one’s hands. These cards
are written in the local language of Malagasy and depict like images of people
indigenous to Madagascar.




    Picture of a counseling card on cholera prevention showing steps to prevent the
    transmission of cholera.

Also, disaster alert systems were developed and implemented in disaster-prone
sites to include the installation of radios and cyclone flags to enhance
communication, as the one shown below, to warn communities of approaching
cyclones.




                                                                                      12
   Picture of a counseling card showing a cyclone flag warning communities
   of approaching cyclones.


USAID/Madagascar’s Monitoring of JSI’s Performance - USAID’s
Contract Information Bulletin 98-21 states that general performance
monitoring is a function of contract administration used to determine
contractor progress towards achieving the goals and objectives of the contract
and to identify any factors that may delay or prevent the accomplishment of
those goals and objectives.

Contract Information Bulletin 98-21 further states that performance
monitoring requires USAID personnel, particularly the Cognizant Technical
Officer (CTO), to maintain adequate knowledge of the contractor’s activities
and progress in order to ensure that USAID’s objectives, as stated in the
contract’s Statement of Work, will be achieved.

As discussed below, USAID/Madagascar monitored and evaluated JSI’s
progress in achieving program objectives by reviewing contractor reports,
meeting with contractor personnel and conducting site visits.

Review of Contractor Reports and Meetings - JSI submitted workplans on
the activities directly related to the cyclones as required by the contract.
Workplans included detailed information on the planned activities in each of
the five districts. The Mission reviewed and approved the workplans.



                                                                            13
                           The Mission performed two annual evaluations3 of JSI’s performance and
                           produced two reports—a Contractor Performance Report and a Performance
                           Evaluation Report. The Contractor Performance Report rated JSI’s
                           performance in four areas: (1) quality, (2) cost control, (3) timeliness and
                           customer satisfaction for USAID and (4) end user. Overall, the Mission rated
                           JSI’s performance as good for program year 2001, and provided suggestions
                           for improvements in areas such as cost control and customer satisfaction for
                           USAID.

                           On the Performance Evaluation Reports, JSI was evaluated in three areas: (1)
                           technical achievement, (2) cost functions, and (3) contract administration and
                           management. The Mission rated JSI’s performance as outstanding for
                           program year 2001. Although rated outstanding, the Mission noted that JSI
                           could make improvements in the budget and financial management areas. The
                           Mission will review this in the next evaluation.

                           The Mission also reviewed and provided comments on JSI’s self-evaluations.
                           JSI provided the Mission with self-evaluation reports covering their
                           assessment of their performance against the targets and benchmarks for the
                           year. For example, in the 2001 report, JSI noted that for the cyclone
                           supplemental they achieved 100 percent of their goals in training 350 health
                           volunteers in 70 communities and equipping 25 health posts with basic
                           medical supplies and equipment.

                           Furthermore, the Mission reviewed the quarterly monitoring reports to ensure
                           that the intended achievements were being met and compared it to the
                           statement of work. When warranted, the Mission provided comments on the
                           reports. In addition, as required by the contract, the Mission held bi-weekly
                           meetings with JSI to keep abreast of the program and maintained a separate
                           work file with all required correspondence and documentation.

                           A review of the vouchers submitted to the Mission on the cyclone activities
                           covering the period of October 17, 2000 to February 27, 2002 revealed that
                           controls were in place as required by the contract. For example, the vouchers
                           were administratively approved by the CTO, funding and costs were properly
                           separated by the different activities, and funding and costs were properly
                           reported against the appropriate accounting codes.

                           The CTO concentrated more on the program and technical management
                           aspects of the contract than the financial aspects. The CTO relied on the
                           controller’s office to fully manage the financial aspects of the contract, which
                           the controller’s office did. For example, the controller’s office would alert the
                           contractor and the CTO when expenses claimed were not adequately

3
  These evaluations cover both the cyclone activities (activities relating to the Supplemental Appropriation) and the
regular contract activities.

                                                                                                                        14
supported, if budgeted line items were exceeded or not budgeted for and if
other items needed further review or attention. During our review, the
Director of the Strategic Objective Team agreed that the CTO would take a
more active role in managing the financial aspects of the contract as well as
the program and technical aspects.

Site Visits - The Mission conducted site visits in May 2001 to four provinces
in the southeast part of Madagascar. The Mission used a checklist to track
JSI’s progress in implementing the activities as defined in the amendments.
During the site visits, the Mission talked to trainees and people in the
community to get their opinion of the programs, viewed presentations that
were staged by JSI and reviewed technical materials, posters, counseling cards
and the other materials that JSI produced to educate the community. The
Mission found that cholera treatment centers were being built and training was
conducted on cholera prevention and treatment of diarrheal diseases and
malaria. The Mission also found that volunteers were trained as indicated by
JSI, health posts were receiving modest repairs and basic medical equipment
and educational materials were being distributed. The Mission discussed with
JSI areas where improvements could be made.

The Mission planned to conduct additional site visits but was unable to do so
because of the political uprising in the country. The Mission plans to conduct
additional site visits once the political situation stabilizes.

In conclusion, the Mission adequately monitored the contractor performance
of John Snow, Inc. and the goals of the Supplemental Appropriation under this
contract are being achieved.




                                                                                15
                 USAID/Madagascar did not have any substantive comments to our draft audit
Management
                 report. However, the Mission stated that they acknowledged the suggestions
Comments and     made during our audit, particularly pertaining to maintaining site visit
Our Evaluation   write-ups in the official working file for Population Services International and
                 that the CTO [Cognizant Technical Officer] of the John Snow, Inc. contract
                  should take a more active role in managing the financial aspects of the
                  contract.

                 Further, the Mission stated that they appreciated the professional conduct of
                 the auditors in performing the audit especially in light of the political
                 situation.




                                                                                                 16
                                                                                  Appendix I


Scope and     Scope
Methodology
              We conducted a concurrent audit of USAID/Madagascar’s monitoring
              performance of disaster preparedness and mitigation through health education,
              training and emergency and health services under the Southern Africa Floods
              Supplemental Appropriation. This audit was conducted in accordance with
              generally accepted government auditing standards.

              To accomplish our audit objective, we conducted fieldwork in Antananarivo,
              Madagascar in February 2002. The audit focused on the cooperative
              agreement between USAID/Madagascar and Population Services International
              (PSI) and amendment numbers six (06) and eight (08) of the contract awarded
              to John Snow, Inc (JSI).

              Because of the highly volatile political situation in Madagascar, the U.S.
              Embassy in Madagascar restricted travel to the capital city of Antananarivo.
              As a result, our scope was impaired because we were unable to travel to other
              provinces in Madagascar to independently observe the activities funded under
              the Supplemental Appropriation, particularly the activities contracted to JSI.
              Activities relating to JSI’s contract were located outside the capital city where
              it was not safe to travel. However, we were able to conduct most of the
              scheduled site visits to observe activities in connection with PSI since most of
              the activities were located in the capital city. Despite this situation, our
              review and analysis of documentation was not hampered and these limitations
              do not affect the material presented in this report. The answer to the audit
              objective is based on documentation reviewed, our analysis of recipient and
              Mission records, and discussions with Mission and recipient personnel, in
              addition to the site visits we made to PSI activities. We also examined the
              management/internal controls in place to monitor the activities of the
              recipients. We assessed management/internal controls such as: establishing
              and maintaining a separate workfile for documents and correspondence
              related to the grant and contract; conducting site visits to evaluate the
              recipient’s progress; documenting significant actions, meetings or
              conversations with the recipients; monitoring funds closely and on a regular
              basis; and ensuring the accuracy of the reports submitted by the recipients.
              There were no prior audit findings affecting the areas reviewed. We
              conducted fieldwork from February 14 through February 28, 2002.




                                                                                              17
Methodology

We gained an understanding of USAID/Madagascar’s performance monitoring
of PSI and JSI by reviewing and analyzing applicable documentation such as,
but not limited to, workplans, trip reports, performance monitoring reports,
performance evaluation reports, self-evaluation reports, progress reports,
minutes of monthly meetings, and financial reports. We conducted interviews
with Mission officials and PSI and JSI staff members. We also conducted site
visits to PSI’s warehouse, to the production facility where Sur’Eau is produced
and bottled, hotelys, which are inexpensive streetside restaurants where the
owners use Sur’Eau, and local stores selling Sur’Eau.




                                                                              18
                                                                                               Appendix II

Management
Comments



                           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
                                          USAID/MADAGASCAR
                                             Antananarivo, Madagascar



                                                      MEMORANDUM


             To:          Joseph Farinella, Regional Inspector General/Pretoria

             From:        Stephen M. Haykin, Acting Mission Director /s/

             Subject:     Mission's response to the draft concurrent audit report of
                          USAID/Madagascar's Performance Monitoring of Selected Health
                          Services Funded by the Southern Africa Flood Supplemental
                          Appropriation

             Date:        June 12, 2002

             Reference: Draft Report


             The Mission has reviewed the draft report on the subject audit and has no substantive
             comments.

             We acknowledge the suggestions provided by the auditors during their audit, particularly
             pertaining to maintaining site visit write-tips in the Mission's official PSI working file and
             that the CTO for the JSI contract should take a more active role in managing the
             financial aspects of the contract.

             I appreciated the professional conduct of your staff in performing this audit especially in
             light of the political situation that developed while the auditors were performing the audit.
             They adapted quickly to the situation and were able to adjust their plans in order to
             complete their associated audit tasks.




             Clearances:
             Paul.Kramer, USAID Controller /s/
             Pedro Carillo, Acting HPN Chief /s/




                                                                                                              19
